National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001


                                         March 24, 2008

TO:            Assistant Administrator for Procurement
               Assistant Administrator for Legislative and Intergovernmental Affairs

FROM:          Assistant Inspector General for Auditing

SUBJECT:       Final Memorandum on Audit of NASA’s Documentation of Readiness for
               Award Form Usage for Site-Specific Earmarks (Report No. IG-08-013;
               Assignment No. A-06-028-01)


The Office of Inspector General (OIG) conducted an audit of NASA’s management and
funding of fiscal year (FY) 2006 site-specific earmarks. This audit is related to our
“Audit of NASA’s Management and Implementation of FY 2006 Congressional
Earmarks” (Report No. IG-07-028, August 9, 2007), which was provided to the
Administrator without recommendations. The overall objective of this audit was to
assess NASA’s process for awarding site-specific congressional earmarks. NASA
defined a site-specific earmark as funding directed to specific activities and identified
facilities, recipients, or both that should perform the work. Specifically, we assessed
whether NASA personnel followed established procedures for evaluating and awarding
site-specific earmarks.

To accomplish that objective, we reviewed procurement files for 30 statistically selected
site-specific earmarks. See Enclosure 1 for details on our scope and methodology.

Executive Summary
We found that NASA personnel followed the Agency’s policies and procedures for
evaluating and awarding earmarks and that the policies and procedures are generally
adequate for their intended purpose. However, we found that, in a couple of respects, the
policies could be improved. Specifically, out of the 29 earmark grants (1 site-specific
earmark was awarded as a contract) in our sample, we found that period of performance
data were incorrectly documented on the “Documentation of Readiness for Award”
(DORA) form for 20 earmark grants (69 percent) and 3 earmark grants (10 percent)
contained incorrect estimates of the value of work to be performed by NASA. This was
because NASA policies do not define what should be included in period of performance
and the value of work to be performed by NASA elements on the DORA form.

Our February 1, 2008, draft of this memorandum recommended that the Assistant
Administrator for Legislative and Intergovernmental Affairs issue guidance for
accurately documenting period of performance and work to be performed by NASA on
the DORA forms.
                                                                                              2



Management’s comments on the draft of this memorandum are responsive (see
Enclosure 5), and we have closed the recommendation.

Background
NASA’s FY 2006 budget of $16.6 billion included 199 earmarks with congressionally
directed funding of $568.2 million, or 3.4 percent of the Agency’s budget. NASA
characterized 12 of the 199 as programmatic earmarks because they directed the use of
$280.7 million in appropriated funding to existing NASA programs. NASA
characterized the remaining 187 as site-specific earmarks because they directed the use
of $287.5 million in appropriated funding to specific activities and identified facilities,
recipients, or both that should perform the work. To meet our audit objective, we
reviewed a statistically selected sample of 30 site-specific earmarks, valued at
$40.7 million (see Enclosure 2). Of the 30 earmarks that we reviewed, 29 were awarded
as grants and 1 was awarded as a contract.

In FY 2006, NASA’s Office of Procurement issued Grant Information Circular (GIC)
06-01, “Additional Guidance Related to the Processing of Congressional Interest Items
(Earmarks),” April 12, 2006, which provides criteria for the pre-award evaluation of
earmark grant proposals. Additionally, the Office of Legislative and Intergovernmental
Affairs (OLIA) issued a memorandum, “FY 2006 Congressional Earmarks,” April 12,
2006, to define the procedural requirements for the evaluation and award of FY 2006
earmarks and to provide general guidance to the Mission Directorates and Centers for
processing proposals. Enclosure 3 depicts NASA’s process for identifying, awarding,
and monitoring site-specific earmarks. The OLIA memorandum requires the appropriate
NASA technical officer to complete a DORA form for each earmark grant. The DORA
form is the Agency’s internal record for each earmark. See Enclosure 4 for an example
of the FY 2006 DORA form.

Personnel Followed Policies and Procedures
We reviewed documentation in the procurement files for the 30 statistically selected site-
specific earmarks in our sample and concluded that Agency personnel generally followed
NASA’s procedural requirements for evaluating and awarding earmarks contained in
GIC 06-01 and the OLIA memorandum. Consequently, NASA has reasonable assurance
that personnel adhered to policies and procedures for processing the award of earmarks.
The following table lists the documentation that is required to be included in the earmark
procurement files and the compliance rates that we found.
                                                                                         3



                Documentation Required to Be                       Compliance Rate
               Included in the Procurement File                       (percent)
Documentation of Readiness to Award (DORA) form                         100
DORA form completed and signed by the technical officer                 100
DORA form with indication that it has been reviewed and
                                                                        100
 approved by the Center Chief Financial Officer
DORA form with evaluation rating (ensure it agrees with
                                                                         87
 technical evaluation)
DORA form with accurate amount awarded to the recipient                  87
Signed award instrument                                                 100
Request for Proposal                                                     87
Recipient’s detailed cost budget                                        100
Recipient’s technical proposal                                          100
Evidence that the technical officer performed a technical
                                                                         97
  evaluation
Evidence that the grants officer performed a cost reasonableness
                                                                         98
  evaluation



Identified Weaknesses Indicate Areas for Policy Improvements
NASA could improve the administrative documentation of site-specific earmarks by
providing guidance that defines the period of performance and work to be performed by
NASA. We identified weaknesses that resulted in incorrect documentation of data on the
DORA forms. Consequently, while NASA has reasonable assurance that personnel
adhered to policies and procedures for processing the award of earmarks, NASA has
limited assurance that DORA forms contained accurate information.

Undefined Terms for Award Information. The OLIA memorandum does not provide
sufficient guidance for completing the DORA form. Among other items, the
memorandum requires the technical officer to enter the grant period of performance and
the value of work to be performed by NASA on the DORA form. We examined the
DORA forms for the 29 earmarks from our sample that NASA had awarded as grants.
We found the following errors:

    •   For 20 of 29 earmarks (69 percent), the DORA form contained incorrect
        information for the period of performance. For 11 of the 20 earmarks
        (55 percent), the period of performance on the DORA form did not agree with the
        period noted on the award instrument. For 9 of the 20 earmarks (45 percent), the
                                                                                       4



       DORA form showed the period of performance in length of time (e.g., 1 year,
       12 months) rather than as specific begin and end dates.

   •   For 3 of the 29 earmarks (10 percent), the DORA form contained incorrect
       estimates of the value of work to be performed by NASA. Specifically, the
       DORA form for 1 earmark did not include the value of NASA work, and DORA
       forms for 2 earmarks incorrectly reported the value of the work that NASA
       planned to perform.

These errors occurred because the OLIA memorandum did not provide clear guidance to
technical officers on how to complete the DORA elements for period of performance and
value of work to be performed by NASA. Technical officers lacked a clear, consistent
definition of the required information. Consequently, the Agency’s internal record could
contain inaccurate award information.

Recommendation, Management’s Response, and Evaluation of
 Management’s Response
We recommended that the Assistant Administrator for Legislative and Intergovernmental
Affairs issue an updated memorandum with detailed guidance for accurately
documenting period of performance and work to be performed by NASA on the DORA
forms.

   Management’s Response. The Assistant Administrator for Legislative and
   Intergovernmental Affairs concurred with the recommendation. OLIA will define the
   DORA elements for the period of performance and the value of work to be performed
   by NASA as part of the Agency’s guidance for FY 2008 earmarks. In addition, OLIA
   will revise the DORA form so that the “period of performance” and “in-house work”
   sections will contain more specific annotation requirements as well as procurement
   definition and citation.

   Evaluation of Management’s Response. Management’s comments are responsive.
   OLIA issued a memorandum, “FY 2008 Site Specific Congressional Earmarks,” on
   March 17, 2008. The memorandum defines DORA elements for the period of
   performance and the value of work to be performed by NASA. Additionally, the
   memorandum includes the FY 2008 DORA form, with revisions, making previous
   versions of the DORA form obsolete. The recommendation is resolved and closed.
                                                                                        5



We appreciate the courtesies extended during our audit. If you have any questions, or
need additional information, please contact Mr. Raymond Tolomeo, Science and
Aeronautics Research Director, at 202-358-7227.


   signed
Evelyn R. Klemstine

5 Enclosures

cc:
Deputy Assistant Administrator for Legislative Affairs
                              Scope and Methodology
We performed this audit from April 2007 through February 2008 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

For the audit, we defined a congressional earmark as a provision of law, a directive, or
item represented in any table, chart, or text contained within a joint explanatory statement
or a report accompanying a bill that specifies the identity of an entity, program, project,
or service and the amount of the assistance to be received. We used NASA’s
characterization of an earmark as either a programmatic or site-specific earmark. Audit
conclusions were based on a statistically selected sample of 30 site-specific earmarks,
valued at $40.7 million. Those earmarks were included in the Conference Report for the
FY 2006 NASA appropriation.

To determine whether NASA personnel followed established procedures for evaluating
and awarding site-specific earmarks, we tested compliance with control procedures put in
place over NASA’s earmark process. We identified procedural requirements for
earmarks in GIC 06-01 and OLIA memorandum, “FY 2006 Congressional Earmarks,”
April 12, 2006. We reviewed grant awards, technical evaluations, and other
documentation to determine compliance with requirements. We interviewed OLIA,
Headquarters, program, and Center personnel as well as technical officers to confirm our
observations. We summarized compliance rates for the 30 earmarks in our sample (see
the table on page 3).

Additionally, we analyzed control activities in NASA’s process for awarding site-specific
earmarks. The analysis applied standards from Office of Management and Budget
Circular No. A-123, “Management’s Responsibility for Internal Control,” December 21,
2004, and Government Accountability Office “Standards for Internal Control in the
Federal Government,” November 1999.

Computer-Processed Data. We did not use computer-processed data to perform this
audit.

Prior Coverage. “NASA’s Management and Funding of Fiscal Year (FY) 2006
Congressional Earmarks” (IG-07-028, August 9, 2007), available over the Internet at
http://www.hq.nasa.gov/office/oig/hq/audits/reports/FY07/index.html, reports our
conclusion that 70 percent of FY 2006 site-specific earmarks generally aligned with the
Agency’s priorities for advancing its mission and goals. In addition, 70 percent of the
funding for site-specific earmarks aligned with NASA’s priorities, while 30 percent
($86.5 million) did not.



                                                                                Enclosure 1
                                                                                Page 1 of 1
                  Statistically Selected Site-Specific Earmarks
Site-Specific Earmark in Each Mission Directorate
or Cross-Agency Support Office                                                             Amount
Aeronautics Research
    Research of propagating and predicting uncertainty in dynamic systems                  $3,000,000
    Aeronautics research of which $1 million is for a demonstration of the Navy's Joint
                                                                                            4,000,000
    Aviation Technical Data Integration program into civilian applications
Education
    Space exploration education program                                                       700,000
    Collegiate innovative teacher training initiative                                       1,000,000
    University academic programs                                                            1,000,000
    Collegiate integrated education center                                                  1,000,000
    Public school system math and science programs                                            150,000
    Space education learning center                                                           600,000
    Science center exhibits                                                                   250,000
    University education initiative                                                         1,000,000
Exploration Systems
    Collaborative research on innovative carbon nanotechnology                              1,000,000
    Space technology program                                                                1,000,000
    University development and enhancement of space flight technologies                     1,000,000
    Program for high-power pulsed inductive thruster technology research                    2,000,000
    University research of rejuvenating injured tissues for enhanced wound healing          1,000,000
    Laboratory initiative for a modeling and simulation test bed environment                1,000,000
    Support for research in nanotechnology and biotechnology                                2,000,000
    Support for research and development in nanotechnology, biotechnology, and
                                                                                            2,000,000
    information technology
Other Cross-Agency Support Offices
    Research of grid computing-based evolutionary design techniques across NASA
                                                                                            4,500,000
    applications
    Infrastructure upgrades to accommodate unmanned aerial vehicles                         4,000,000
    Initiative for NASA education K-12                                                        200,000
Science
    University center for earth observing research                                          2,000,000
    Collaborative research of earth science applications                                    2,000,000
    University research of deep submicron radiation hard electronics                          500,000
    University laboratory for advanced scintillator materials                                 800,000
    University support of a large millimeter telescope project                                750,000
    Project to support geospatial sciences                                                    200,000
    University research of Sun-climate and extra solar planets                                300,000
    University digital image archive center                                                   750,000
    University center for space and planetary sciences                                      1,000,000
        Total site-specific earmarks (30)                                                 $40,700,000




                                                                                          Enclosure 2
                                                                                          Page 1 of 1
                 NASA’s Process for Identifying, Awarding,
                  and Monitoring Site-Specific Earmarks
Within each of the phases illustrated below, some tasks are performed concurrently rather
than sequentially.




                                                                             Enclosure 3
                                                                             Page 1 of 1
NASA’s FY 2006 Documentation of Readiness for Award Form




                                                   Enclosure 4
                                                   Page 1 of 1
Management’s Comments




                        Enclosure 5
                        Page 1 of 2
Enclosure 5
Page 2 of 2
